            UN ITED STATES OF AM ERICA
       FEDERAL TRADE COMMISSION
             W ASH IN GTO N , D .C. 20580




FEDERAL TRADE COMMISSION
 OFFICE OF INSPECTOR GENERAL




SEMIANNUAL REPORT TO CONGRESS

   April 1, 2007 - September 30, 2007



                          Report #37
O ffice of Inspector General
                                              October 24, 2007



The Honorable Deborah Majoras
Chairman
Federal Trade Commission
600 Pennsylvania Avenue, N.W.
Washington, D.C. 20580

Dear Chairman Majoras:

        The attached report covers the Office of Inspector General's (OIG) activities for the first
half of fiscal year 2007 and is submitted according to Section 5 of the Inspector General Act of
1978, as amended.

       During the six-month reporting period ending September 30, 2007, the OIG completed a
review of the FTC’s Implementation of the Federal Information Security Act for FY 2006,
issued Management Challenges for inclusion in the FTC’s FY 2007 Performance and
Accountability Report and issued an audit of the FTC’s Consumer Response Center.

        In addition, the OIG processed 42 consumer inquiries and complaints/allegations of
possible wrongdoing during the period, opened four new investigations into wrongdoing and
referred one matter to the Department of Justice for prosecutorial consideration.

       As in the past, management has been responsive in attempting to implement all OIG
recommendations. I appreciate management's support and I look forward to working with you in
our ongoing efforts to promote economy and efficiency in agency programs.

                                              Sincerely,



                                              Howard L. Sribnick
                                              Inspector General
                                       INTRODUCTION

        The Federal Trade Commission (FTC) seeks to ensure that the nation’s markets are
competitive, efficient and free from undue restrictions. The FTC also seeks to improve the
operation of the marketplace by ending unfair and deceptive practices, with emphasis on those
practices that might unreasonably restrict or inhibit the free exercise of informed choice by
consumers. The FTC relies on economic analysis to support its law enforcement efforts and to
contribute to the economic policy deliberations of Congress, the Executive Branch and the
public.

        To aid the FTC in accomplishing its consumer protection and antitrust missions, the
Office of Inspector General (OIG) was provided five work years and a budget of $917,500 for
fiscal year 2007.

                                     AUDIT ACTIVITIES

       During the six-month reporting period ending September 30, 2007, the OIG completed a
review of the FTC’s Implementation of the Federal Information Security Act for FY 2006,
issued Management Challenges for inclusion in the FTC’s FY 2007 Performance and
Accountability Report and issued an audit of the FTC’s Consumer Response Center.

         Detailed information regarding these audits and reviews completed during the reporting
period is provided below.

                                         Completed Audits

        Audit Report Number                                     Subject of Audit

               AR 07-003                     Audit of the Federal Trade Commission’s
                                             Consumer Response Center

               AR 07-004                     The FTC’s Implementation of the Federal Information
                                             Security Act for FY 2007

                 Summary of Audits and Reviews Issued During the Current Period

        AR 07-003, Review of the FTC Consumer Response Center

        The objective of our review was to evaluate pertinent policies and procedures regarding the
operation of the Consumer Response Center, assess the kind of information obtained from
consumers, and determine how consumer complaints are categorized.



       The CRC receives approximately 30,000 to 40,000 contacts per week from consumers, law
enforcement agencies, and other consumer advocate groups. Approximately 10,000 to 12,000 of
                                               -1-
those contacts are consumer complaints. Consumer complaints are entered into the Consumer
Information System database (CIS). In addition to FTC personnel, external agencies can enter
complaints into CIS or provide complaints in bulk to the CRC for uploading into CIS.

        Our review found that consumer complaints received by CRC and the call center contractor
were accurately entered into the Consumer Information System and Consumer Sentinel. However,
we found that not all complaints uploaded from external reporting agencies are correctly identified
under the appropriate product service code (PSC) in Consumer Sentinel. BCP advised that this
occurred when the service codes used by outside entities, such as the Better Business Bureau, did
not match up with the codes used by the agency. BCP will attempt to address this issue in upcoming
follow-on call center contract.

        AR 07-004, Review of Federal Trade Commission Implementation of the Federal
       Information Security Management Act (FISMA) For Fiscal Year 2007

                The objectives of the independent evaluation of the FTC information security
program were to: (1) assess compliance with FISMA and related information security policies,
procedures, standards, and guidelines, (2) determine the effectiveness of information security
policies, procedures, and practices as implemented at Headquarters and the Western Regional Office
in San Francisco, CA., (3) perform a network scan of the FTC Infrastructure network to identify
vulnerabilities in the agency’s security controls and patch management program, (4) assess FTC’s
government equipment usage process, (5) assess FTC’s disaster recovery and contingency planning
capability, and (6) evaluate security controls protecting FTC applications.

        This years OIG review found that the FTC security environment is strong and robust and
continues to evolve to expand its coverage and to address changing threats and requirements.
FTC management recognizes that continued vigilance, and resource investment is required to
continue to protect the data entrusted to its care and secure the availability and integrity of the
information technology (IT) systems that are critical to the agency’s ability to successfully
complete its missions.

         The FTC Office of Information Technology Management (ITM) is presently updating
its security policies and procedures. This effort is integrated with its deployment of the FTC
Privacy Program. Integration of the FTC Information and Privacy programs will result in
stronger protection than if the programs were established as independent efforts.

         The OIG analysis of the current FTC security/privacy control environment identified 19
findings (13 assessed as LOW and 6 as MEDIUM severity) relative to Headquarters activities
and 8 findings (4 assessed as LOW and 4 as MEDIUM severity) at the San Francisco Regional
Office. ITM has already initiated action that will mitigate all of the Headquarters and Regional
Office findings.



        Other Activity



                                               -2-
        Other activity relating to that audit function of the OIG during this reporting period
included revising the OIG Audit Manual to comply with July 2007 revisions to government audit
standards and participation in a peer review conducted by the Smithsonian Institution OIG.

                                           Planned Audits


        Audit Report Number                                  Subject of Review

              AR 08-001                    Audit of the FTC’s Financial Statements for
                                           Fiscal Year 2007 The purpose of the audit is to
                                           express an opinion on the financial statements of
                                           the Federal Trade Commission for the fiscal year
                                           ending September 30, 2007. The principal
                                           statements to be audited include the (a) Balance
                                           Sheet; (b) Statement of Net Cost; (c) Statement of
                                           Changes in Net Position; (d) Statement of
                                           Budgetary Resources; (e) Statement of Financing;
                                           (f) Statement of Custodial Activity, and notes to the
                                           financial statements. The OIG will also test the
                                           internal controls associated with the movement of
                                           transactions through the FTC’s financial system and
                                           assess compliance with selected laws and
                                           regulations.

                                           The OIG will follow guidance contained in OMB
                                           Bulletin No. 01-02, Audit Requirements for Federal
                                           Financial Statements, in performing this audit.

                                           The audited financial statements are required to be
                                           included in the financial section of the agency’s
                                           Performance and Accountability Report to be issued
                                           on or before November 15, 2007.

               AR 08-002                   Review of the Redress Administration Office
                                           (RAO) Tracking of Judgements and Collections
                                           in Bureau of Consumer Protection Cases

                                           In the past, the OIG found that accounting and
                                           reporting on judgments, collections and redress
                                           distributions by the Bureau of Consumer Protection
                                           Redress Office contained errors and omissions.

                                           In response to these findings, the Bureau of Consumer
                                           Protection has launched a new Redress/Enforcement
                                           database that incorporates data about orders,
                                           defendants, receivers, redress distributions, and other
                                             -3-
                                              financial data for redress matters. The OIG will
                                              undertake a follow-up review of the tracking and
                                              reporting of judgments and collections by the Redress
                                              Office to assure that the goals of this important
                                              management challenge are achieved.

     Other Potential Reviews                  Because a new Audit Manager will be joining the
                                              OIG at the end of October, 2007, the decision as to
                                              what additional audits of agency programs should be
                                              initiated is being deferred until this individual has an
                                              opportunity to review the Audit Work Plan developed
                                              by her predecessor.

                                INVESTIGATIVE ACTIVITIES

       The Inspector General is authorized by the IG Act to receive and investigate allegations of
employee misconduct as well as fraud, waste and abuse occurring within FTC programs and
operations. Matters of possible wrongdoing are referred to the OIG in the form of allegations or
complaints from a variety of sources, including FTC employees, other government agencies and the
general public. Reported incidents of possible fraud, waste and abuse can give rise to
administrative, civil or criminal investigations.

        In conducting criminal investigations during the past several years, the OIG has sought
assistance from, and worked jointly with, other law enforcement agencies, including other OIG’s,
the Federal Bureau of Investigation, the U.S. Postal Inspection Service, the U.S. Secret Service, the
U.S. Marshal’s Service, the Internal Revenue Service, U.S. Capitol Police, Federal Protective
Service as well as state agencies and local police departments.

                                     Investigative Summary

        During this reporting period, the OIG received 42 consumer and other inquiries and reports
of possible wrongdoing. Of the 42 complaints 17 involved issues that fall under the jurisdiction of
FTC program components (identity theft, credit repair, etc.). These matters were referred to the
appropriate FTC component for disposition. One complaint was referred to a state agency for
appropriate action. Of the remaining complaints, the OIG opened four new investigations and
twenty complaints were closed with no further OIG action.




      Following is a summary of the OIG's investigative activities for the six-month period ending
September 30, 2007:

                              Cases pending as of 3/31/07               4

                                                -4-
                                PLUS: New cases                         4
                                LESS: Cases closed                     (2)
                              Cases pending as of 9/30/07               6


                                         Investigations Closed

        The OIG closed an investigation, opened during the prior reporting period, involving
alleged unauthorized access to sensitive information in Lexis/Nexis databases by a former FTC
student intern. The allegation stemmed from an internal audit conducted by the agency’s Office
of Information Technology Management. The audit revealed that a former FTC unpaid college
student intern had accessed sensitive databases on Lexis/Nexis after his four-month internship
with the agency had ended. Because Lexis/Nexis had built-in safeguards, the former intern
could only the access names, addresses and partially-redacted social security numbers germane
to his search queries.

        The unauthorized access was possible because an FTC administrative officer failed to
adhere to established agency procedures for “checking out” employees (including unpaid
interns) who resign from the FTC. Our investigation uncovered no evidence that the procedural
breach was deliberate. Rather, the administrative officer did not believe that the routine check-
out procedure (including obtaining signatures on the “check out” form from various
organizations within the agency) applied to short-term unpaid interns. This procedural lapse
prevented the organization within the agency that is responsible for terminating Lexis/Nexis
password authorizations from terminating the intern’s authorization to the sensitive databases.

        Throughout the OIG investigation, the OIG kept the agency’s Chief Privacy Officer and
breach notification response team apprised of the progress of the investigation in order that
notifications to affected individuals could be made, if appropriate. Because no sensitive
personally identifiable information was disclosed as a result of the unauthorized access, the
breach notification response team determined that no individual notifications were necessary.
Because the former intern no longer worked for the agency and the administrative officer who
failed to adhere to procedures did so out of ignorance rather than an intent to violate regulation,
the matter was closed with no OIG referral. However, management was advised to assure
adherence to “checking out” procedures in the future.

       The OIG also closed an investigation involving an employee’s misuse of the agency’s
information technology resources. Our investigation revealed that a senior FTC attorney
submitted a Freedom of Information Act request to a District of Columbia agency and had
multiple email exchanges with that DC agency while using his FTC email account. The
employee’s conduct was found to have violated the agency’s policy on appropriate use of
information technology resources. The OIG transmitted an administrative referral to agency
management for appropriate action.

                                Matters Referred for Prosecution

       During this reporting period the OIG did not refer any new matters to the Department of
                                              -5-
Justice (DOJ) for consideration of potential criminal action. We consulted with DOJ regarding
the unauthorized access to Lexus-Nexus databases investigation described above. Both the OIG
and DOJ agreed that a declination for prosecution was appropriate, based on the facts presented.

       A matter referred to DOJ during the previous reporting period remains pending at DOJ,
with no final action to date.

                                    OTHER ACTIVITIES

                                    Management Advisories

       The OIG issued no new Management Advisories during this reporting period.

                              Significant Management Decisions

        Section 5(a)(12) of the Inspector General Act requires that if the IG disagrees with any
significant management decision, such disagreement must be reported in the semiannual report.
Further, Section 5(a)(11) of the Act requires that any decision by management to change its
response to a significant resolved audit finding must also be disclosed in the semiannual report.
For this reporting period there were no significant final management decisions made with which
the OIG disagreed, and management did not revise any earlier decisions on OIG audit
recommendations.

                                     Access to Information

        The IG is to be provided with ready access to all agency records, information, or
assistance when conducting an investigation or audit. Section 6(b)(2) of the IG Act requires the
IG to report to the agency head, without delay, if the IG believes that access to required
information, records or assistance has been unreasonably refused, or otherwise has not been
provided. A summary of each report submitted to the agency head in compliance with Section
6(b)(2) must be provided in the semiannual report in accordance with Section 5(a)(5) of the Act.

        During this reporting period, the OIG did not encounter any problems in obtaining
assistance or access to agency records. Consequently, no report was issued by the IG to the
agency head in accordance with Section 6(b)(2) of the IG Act.




                                        Audit Resolution

        As of the end of this reporting period, all OIG audit recommendations for reports issued
in prior periods have been resolved. That is, management and the OIG have reached agreement
on what actions need to be taken.

                                     Review of Legislation
                                               -6-
        Section 4(a)(2) of the IG Act authorizes the IG to review and comment on proposed
legislation or regulations relating to the agency or, upon request, affecting the operations of the
OIG. During this reporting period, the OIG reviewed no legislation.

                           Contacting the Office of Inspector General

        Employees and the public are encouraged to contact the OIG regarding any incidents of
possible fraud, waste, or abuse occurring within FTC programs and operations. The OIG
telephone number is (202) 326-2800. To report suspected wrongdoing, employees may also call
the OIG's investigator directly on (202) 326-2618. A confidential or anonymous message can be
left 24 hours a day. Complaints or allegations of fraud, waste or abuse can also be emailed
directly to chogue@ftc.gov. OIG mail should be addressed to:


                                      Federal Trade Commission
                                      Office of Inspector General
                                      Room NJ-1110
                                      600 Pennsylvania Avenue, NW
                                      Washington, D.C. 20580

        OIG reports can be accessed via the internet at: www.ftc.gov/oig. A visitor to the OIG
home page can download recent (1996-2006) OIG semiannual reports to Congress, the FY 1998
- 2006 financial statement audits, and other program and performance audits issued beginning in
FY 1999. A list of audit reports issued prior to FY 1999 can also be ordered via an e-mail link to
the OIG. In addition to this information resource about the OIG, visitors are also provided a link
to other federal organizations and Office of Inspectors General.




                                                -7-
TABLE I               SUMMARY OF INSPECTOR GENERAL
                         REPORTING REQUIREMENTS

   IG Act
 Reference                      Reporting Requirement                            Page(s)

Section 4(a)(2)       Review of legislation and regulations                         7

Section 5(a)(l) Significant problems, abuses and deficiencies              1-2

Section 5(a)(2)       Recommendations with respect to significant
                      problems, abuses and deficiencies                             1-2

Section 5(a)(3)       Prior significant recommendations on which
                      corrective actions have not been made                         7

Section 5(a)(4)       Matters referred to prosecutive authorities                   6

Section 5(a)(5)       Summary of instances where information was refused            6

Section 5(a)(6)       List of audit reports by subject matter, showing dollar
                      value of questioned costs and funds put to better use 9-10

Section 5(a)(7)       Summary of each particularly significant report               1 -2

Section 5(a)(8)       Statistical tables showing number of reports and
                      dollar value of questioned costs                              9

Section 5(a)(9)       Statistical tables showing number of reports and dollar
                      value of recommendations that funds be put to better use      10

Section 5(a)(10)      Summary of each audit issued before this reporting
                      period for which no management decision was made
                      by the end of the reporting period                            7

Section 5(a)(11)      Significant revised management decisions                      6

Section 5(a)(12)      Significant management decisions with which
                      the Inspector General disagrees                               6




                                               -8-
                               TABLE II
                   INSPECTOR GENERAL ISSUED REPORTS
                        WITH QUESTIONED COSTS



                                                                       Dollar Value

                                                               Questioned     Unsupported
                                                      Number     Costs            Costs


A.   For which no management decision has
     been made by the commencement of the
     reporting period                                   0          0          (       0   )

B.   Which were issued during the reporting
     period                                             0          0          (       0   )

     Subtotals (A + B)                                  0          0          (       0   )

C.   For which a management decision was
     made during the reporting period                   0          0          (       0   )

     (i) dollar value of disallowed costs               0          0          (       0   )

     (ii) dollar value of cost not disallowed           0          0          (       0   )

D.   For which no management decision was
     made by the end of the reporting period            0          0          (       0   )

     Reports for which no management
     decision was made within six months of
     issuance                                           0          0          (       0   )




                                                -9-
                                       TABLE III

         INSPECTOR GENERAL ISSUED REPORTS
WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE


                                                          Number   Dollar Value
A.   For which no management decision has been made
     by the commencement of the reporting period            0           0


B    Which were issued during this reporting period         0           0


C.   For which a management decision was made during
     the reporting period                                   0           0

     (i) dollar value of recommendations that were
     agreed to by management                                0           0

     - based on proposed management action                  0           0

     - based on proposed legislative action                 0           0

     (ii) dollar value of recommendations that were not
     agreed to by management                                0           0


D.   For which no management decision has been made
     by the end of the reporting period                     0           0

     Reports for which no management decision was
     made within six months of issuance                     0           0




                                              - 10 -
